 Semiannual Report to the

CONGRESS
  October 1, 2010 - March 31, 2011




OFFICE OF THE INSPECTOR GENERAL
      LIBRARY OF CONGRESS
The entrance pavilion of the Library of Congress Thomas Jefferson
Building features three massive archways and a portico supported by a
row of twin columns. The shaft of each column is made from a single,
granite block. Busts of great writers and thinkers are visible in the
circular windows in the background.




Above: The Library of Congress, Thomas Jefferson Building. Description from
The Library of Congress, America’s Treasure House, A Book of Postcards.
Photograph by Michael Dersin.

Cover Design: Jennifer R. Bosch, Office of the Inspector General.
  March 31, 2011


A Message From the Inspector General
In the last six months, we prepared reports on the management of a multi-sector workforce;
Library Services’ planning, budgeting, and performance assessment methodology; the Law
Library’s security procedures over rare books; close-outs of three cooperative agreements under
the National Digital Information Infrastructure and Preservation Program (NDIIPP); improper
payments; and surveys of ‘cloud computing’ and the Library’s policies and procedures for ensuring
personnel security. We also reported on the Library and Madison Council’s fiscal year (FY) 2010
financial statements. During this period, investigations focused on a distributed denial of service
attack on one of the Library’s Web servers, problems from a migration to a new email service,
pirated DVDs and Talking Books, pornography and other misuse of computers, conflicts of
interest, and other matters.

In the next six months, we will report on in-progress reviews of how well the Library finds
material requested by researchers, management of the Talking Books and surplus books programs,
the Library’s telecommuting program, in-depth follow-up reviews of IT Strategic Planning and
the Library’s Office of Workforce Diversity (now the Office of Opportunity, Inclusiveness and
Compliance), a quantitative assessment of the Music Division’s collections, the Open World
Leadership Center’s FY 2010 financial statements, improper payments, an investigation of
apparent contractor overcharges; and several other topics.

We appreciate the cooperative spirit Library staff have shown during our reviews.

Our publicly released reports are available online at www.loc.gov/about/oig.




Karl W. Schornagel
Inspector General
Table of Contents


 In Summary.......................................................................................................................................         1
 Profiles...............................................................................................................................................   5

 Audits, Surveys, and Reviews........................................................................................................                      9
    Performance-based Budgeting–Library Services ...................................................................................                       9
        Law Library Collections Security.......................................................................................................... 11
        Cloud Computing...........................................................................................................................         13
        Multi-Sector Workforce Management ..............................................................................................                   14
        Personnel Security Office Policies and Procedures................................................................................... 16
        Improper Payments Review..............................................................................................................             17
        National Digital Information Infrastructure and Preservation Program.................................................                              20
        Library of Congress FY 2010 Financial Statements..............................................................................                     21
        Madison Council FY 2010 Financial Statements..................................................................................                     21
 Investigations..................................................................................................................................... 23
         Significant Criminal and Administrative Investigations......................................................................                      25
         Follow-up on Investigative Issues from Prior Semiannual Periods...........................................................                        29
 Other Activities (Including Peer Reviews).................................................................................. 31
 Review of Legislation and Regulations........................................................................................ 33
 Unimplemented Recommendations................................................................................................. 34
 Implemented Recommendations...................................................................................................                            39
 Funds Questioned or Put to Better Use ...................................................................................                                 43
 Audits with Questioned Costs......................................................................................................                        43
 Instances Where Information or Assistance Requests Were Refused................................... 44
 Status of Recommendations Without Management Decisions................................................ 44
 Significant Revised Management Decisions................................................................................. 44
 Significant Management Decisions With Which OIG Disagrees............................................. 44
 Follow-up on Prior Period Recommendations............................................................................. 44
 Organizational Chart...................................................................................................................... 45
 Hotline Information...............................................................................................Inside Rear Cover




Left: Great hall, View from Above Showing Three Archways
and an Inlaid Marble Floor Design of the Zodiac.
Photograph by Carol Highsmith, 2007.
                                            In Summary . . .
                                            Audits, Surveys, and Reviews
                                            In this semiannual period the Office of the Inspector General (OIG) re-
                                            viewed Library Services’ (LS) performance-based budgeting framework.
                                            We found LS far ahead of other service units in making the important
                                            connections between results-oriented program planning and budgetary re-
                                            sources.

                                            We also addressed concerns over the Law Library’s (LL) security controls
                                            for rare items and the possible lack of secure storage for some of the rare
                                            materials. We noted a lack of vault space, the opportunity for improvement
                                            in the accountability of rare items, and reviewed the background investiga-
                                            tion techniques for employees who handle these materials.

                                            Additionally, we conducted a high-level survey of ‘cloud-computing’ and
                                             its applicability to the Library’s environment. We urged the Library to
                                                explore additional venues for increasing the use of cloud-computing
                                                  and we anticipate future reviews of this topic.

                                                   In our review of the Library’s mix of workforce, we focused on the
                                                   processes used to determine whether to hire contract personnel or
                                                   federal government employees for needed services. We concluded
                                                  that the Library does not currently utilize a Library-wide set of pro-
                                                 cedures for this determination and that the Library can improve the
                                                quality of data collected on its overall workforce.

                                            We looked at the Library’s personnel security and suitability programs to
                                            ensure that the Personnel Security Office (PSO) was following procedures
Above: Great Hall, Detail of Zodiac         for positions that require access to classified or valuable information. We
Inlaid Floor Design, Symbol for Scorpio.
Photograph by Jennifer R. Bosch, 2011.      also considered whether a public trust designation was appropriate for
Right: Great Hall, Commemorative Arch       these employees. Our review indicated that the PSO was successfully man-
Inscribed with the Acts Incorporating the
Library and the Names of Key Individuals
                                            aging background investigations for Library personnel and that the PSO
Involved in Constructing the Thomas         supplied adequate protection for the personal information it collected and
Jefferson Building.
Photograph by Carol Highsmith, 2007.        maintained.

                                            Also in this period, we evaluated the Library’s exposure to improper pay-
                                            ments. We concluded that the Library’s internal controls designed to pre-
                                            vent and detect improper payments were adequate.

                                            Finally, we contracted with an independent public accounting firm to ob-
                                            tain audit opinions on the FY 2010 Financial Statements of the Library
                                            and the James Madison Council, and to audit the cooperative agreements
                                            between the Library and the Universities of California, North Carolina
                                            State, and Maryland.

                                            These and other audits, surveys, and reviews are discussed further begin-
                                            ning on page 9.


 1 • Semiannual Report to the Congress
Investigations
OIG investigators worked with the Federal Bureau of Investigation (FBI)
and others on two copyright-related cases. One involved a distributed de-
nial of service (DDOS) attack on the server hosting the Copyright Office’s
Web site that disrupted the processing of electronic copyright applications
and other services. The other case involved the illegal sale of pirated DVD
movies on Library premises. We also investigated the illegal sale of Talking
Books pirated from those produced by the National Library Service for the
Blind and Physically Handicapped (NLS).

We investigated two related cases of potential conflict of interest and misuse
of Library equipment and time. In the first case, an employee gave prefer-
ential treatment to Library vendors in return for discounts relating to the
employee’s personal affairs. In the other case, a supervisor spent official time
conducting a personal business on a government computer.

Investigators found Library reading room computers being used to access
pornography; one by a U.S. Capitol Police (USCP) employee, one by a Li-
brary contractor’s employee, and another by a patron. In another case, that
the Library settled without consulting us, we investigated a Library man-
ager who made improper and unprofessional use of a Library computer.

We also investigated allegations of problems with the Library’s migration to
a new email service and circumstances surrounding the arrest of a Library
employee on drug related charges.

These and other cases are discussed further beginning on page 23.
                                                  Other Activities

                                                  The OIG responded to a recurring biannual request from Senators Grassley
                                                  and Coburn for reporting agency interference with OIG activities. Al-
                                                  though there were no issues to report in this semiannual reporting period,
                                                  the OIG responded to a follow-up inquiry from Senator Grassley based on
                                                  the prior semiannual period.

                                                  We wrote two memorandums and held discussions with the Librarian and
                                                  the U.S. Capitol Police (USCP) about sharing information, collections se-
                                                  curity, and employee rights. We also reviewed a report from Library Ser-
                                                  vices on digital reference services and offered two suggestions concerning
                                                  the collection and reporting methodology for digital reference transactions
                                                  and consideration for consolidating service resources.

                                                  The Inspector General served on a panel at the forum Protecting Our Na-
                                                  tional Treasures: The Impact and Prevention of Archival Theft, sponsored by
                                                  the National Archives and Records Administration.

                                                  Finally, the OIG conducted a peer review during this semiannual period of
                                                  the Government Printing Office Inspector General’s audit operations.

                                                  These activities are discussed further beginning on page 31.




Right : Great Hall, Ceiling Depicting Printer’s
Marks and the Arts and Sciences.
Photograph by Carol Highsmith, 2007.

 3 • Semiannual Report to the Congress
                                         Profiles
                                         Library of Congress

                                         The Library of Congress is the research and information arm of the
                                         United States’s national legislature and the world’s largest storehouse
                                         of knowledge. The mission of the Library is to support the Congress
                                         in fulfilling its constitutional duties and to further the progress of
                                         knowledge and creativity for the benefit of the American people.
                                         The mission is accomplished through more than 4,000 employees
                                         and contractors, and $800 million in annual appropriated funds and
                                         other financing sources.
Above: Printer’s Mark of William Cax-
ton from an 1897 Library of Congress
Guidebook.                               Founded in 1800, the Library of Congress is also the nation’s oldest
Photograph by Jennifer R. Bosch, 2011.
                                         federal cultural institution, holding more than 147 million items on
Right: Great Hall, Second Floor Corri-
dor, Printer’s Marks of William Caxton   838 miles of shelves. These items include books, manuscripts, maps,
and Richard Grafton.
Photograph by Carol Highsmith, 2007.     prints and photographs, printed music, sound recordings, films, and
                                         microforms. Half of the Library’s collections are from outside the
                                         United States, representing 470 languages. In addition to its three
                                         Capitol Hill buildings and Taylor Street Annex in Washington, DC,
                                         the Library operates six overseas offices and stores collections material
                                         in purpose-built facilities in Maryland and at the National Audio
                                         Visual Conservation Center in Culpeper, Virginia. Nearly 20 million
                                         original source, analog items have been digitized and are accessible
                                         at www.loc.gov. The Library also holds an exponentially expanding
                                         collection of digital-born content.

                                         The Library’s core organizational components are:

                                             •	   Library Services,
                                             •	   The U.S. Copyright Office,
                                             •	   The Congressional Research Service,
                                             •	   The Law Library, and
                                             •	   The Office of Strategic Initiatives

                                         Library Services performs the traditional functions of a national
                                         library: acquisitions, cataloging, preservation, and reference services
                                         for both digital and conventional collections. It operates the National
                                         Library Service for the Blind and Physically Handicapped and the
                                         American Folklife Center, among other programs.

                                         The U.S. Copyright Office administers the copyright laws of the
                                         nation and registers copyrightable material; its deposits of intellectual
                                         material (books, music, and movies) substantially contribute to the
                                         Library’s collections.


     5 • Semiannual Report to the Congress
The Congressional Research Service supports the legislative process by
providing exclusively to Congress, objective, confidential assessments
of public-policy issues, and legislative options for addressing those
issues.

The Law Library assists Congress and the legislative process by
supporting comprehensive research on foreign, comparative,
international, and U.S. law and other legal reference services.

The Office of Strategic Initiatives directs the national program for
long-term preservation of digital cultural assets, leads a collaborative
institution-wide effort to develop consolidated digital future plans, and
integrates the delivery of information technology services.

Last year, services provided by the Library included:

    •	   Fulfilling 527,466 reference requests,
    •	   Circulating 25 million disc, cassette, and Braille items 		
	        to more than 800,000 blind and physically handicapped
          patrons,
    •	   Registering 636,527 copyright claims,
    •	   Receiving 22,000 items daily and adding more than
         10,000 items daily to its collections,
    •	   Preparing 1,405 legal research reports for Congress and
          other agencies, and
    •	   Providing to Congress access to over 6,600 reports on legislative
	        issues and preparing over 3,600 tailored analyses.

The Library of Congress also recorded 77 million visits and 581.1
million page-views of its primary source files on its Web site, and
received 1.7 million on-site visitors.
                                        Office of the Inspector General

                                        The establishment of statutory federal Inspectors General began in
                                        1978 to empower independent audit and investigative organizations
                                        to focus on fraud, waste, and abuse within federal agencies. The
                                        Library of Congress OIG was established in 1988 as a non-statutory
                                        office deriving its authority from the Librarian of Congress. The
                                        OIG became statutory with the passage of the Library of Congress
                                        Inspector General Act of 2005, with a mandate to:

                                            •	   Conduct and supervise audits and investigations
                                        	        relating to the Library of Congress,
                                            •	   Lead, coordinate, and recommend policies to 			
                                        	        promote economy, efficiency, and effectiveness, and
                                            •	   Keep the Librarian of Congress and the Congress
                                        	        fully and currently informed about problems and
                                        	        deficiencies relating to the administration and operations
                                        	        of the Library of Congress.

                                        The OIG is a member of the Council of the Inspectors General on
                                        Integrity and Efficiency (CIGIE), a unified council of all federal
                                        statutory Inspectors General, and serves on the council’s investigations
                                        committee.

                                        This Semiannual Report to the Congress is a part of the OIG’s
                                        statutory reporting requirement and is organized to address the major
                                        functions of the office including:

                                            •	   Significant audits, investigations, and other reviews 		
                                        	        and activities of the OIG,
                                            •	   Review of legislation and regulations affecting the Library,
                                            •	   Library decisions on OIG recommendations and the status
                                        	        of implementation, along with any resulting monetary 		
                                        	        benefits.




7 • Semiannual Report to the Congress
Audits are in-depth reviews that address the efficiency, effectiveness,
and economy of the Library’s programs, activities, and functions;
provide information to responsible parties to improve public
accountability; facilitate oversight and decision-making; and initiate
corrective action as needed.

Some audits address whether financial statements fairly present
financial positions, results of operations, and cash flows. They also
assess whether an entity has adequate internal control systems and
complies with applicable laws and regulations. The OIG also performs
related types of reviews such as inspections and attestations.

Investigations are typically based on alleged or suspected
wrongdoing by agency employees, contractors, or others
responsible for handling federal resources. Violations of
Library regulations or fraud committed against the Library
can result in administrative sanctions and criminal or civil
prosecution. Contact information for the OIG Hotline is
located on the inside rear cover of this report.

Our staff is educated and certified in various disciplines. We
are, collectively, four certified public accountants (CPA),
two attorneys, two certified internal auditors (CIA), two
certified information systems auditors (CISA), three special
agents, an investigator, a Master of Library Science, and
other highly qualified staff.

OIG reports are available at www.loc.gov/about/oig.




                                                                     Above: Great Hall, Female Bronze Statue Holding Torch on Newel
                                                                     Post in Foreground. Photograph by Jennifer R. Bosch, 2011.

                                                                      Semiannual Report to the Congress • 8
                           Audits, Surveys, and Reviews
                           Library Services
                           Working Toward the Spirit of GPRA-Library Services:
                           Commendable Progress with Room for Improvement

                           Audit Report No. 2010-PA-107
                           January 2011

                           Congress enacted the Government Performance and Results
                           Act (GPRA) in 1993 to improve the management of the federal
                           government. The basic premise of GPRA was to tie funding to
                           program performance. Initially, the act only applied to executive
                           branch agencies, but Congress subsequently directed legislative
                           branch agencies to comply with the spirit of the act and embrace its
                           performance management principles.

                           Our office previously released two reports on the Library’s
                           development of its performance management methodology. They
                           were the first in a series and focused on the development of Library-
                           wide policies and procedures. This report addressed the Library’s
                           largest service unit, Library Services (LS) compliance with those
                           Library-wide performance management policies and procedures.

                           We found that LS has made good progress in complying with the
                           Library’s performance management framework. It also has gone
                           further by linking its strategic plan to its annual performance goals,
                           budgetary resources, and staffing and presented it in a document
                           titled FY 2009 Performance Budget. We found this document far
                           ahead of what we encountered in other service and support units in
                           linking results oriented program planning and budgetary resources.

                           Even though we found a sound performance management framework,
                           LS management needs to improve the validity of its performance data
                           to ensure it is reliable for decision-making purposes. The following
                           comments address those concerns:

                           LS Should Use Consistent Terminology—The terminology in
                           various documents differ. For example, key terms used in the FY
                           2009 Performance Budget differ from those used in eLCplans, the
                           Library’s electronic performance management package. As a result,
                           users may find it difficult to obtain a complete understanding of
                           LS’ performance activities. We believe that presenting performance
                           information with consistent terminology across platforms will
                           enhance the value of LS’ performance management activities. To

Right: Great Hall, View of Ceiling and Cove, Showing
Aluminum Plating and Stained Glass Windows.
Photograph by Michael Dersin.

 9 • Semiannual Report to the Congress
                                                assure consistency and prevent
                                                confusion, we recommended
                                                that LS management prepare
                                                documents succeeding the FY
                                                2009 Performance Budget in a
                                                format and with terminology
                                                consistent with eLCplans.

                                                LS Management Should
                                                Im p r ove t h e Q u a l i t y o f
                                                Performance Target Data—Office of the
                                                Chief Financial Officer (OCFO) Directive
                                                08‐09, Strategic and Annual Program Performance
                                                Planning and Library of Congress Regulation 1511,
                                                Planning, Budgeting, and Program Performance Assessment,
                                                place responsibility on service and support units to ensure that
                                                valid and verifiable data is used in performance assessments. LS’
                                                performance data showed a high ratio of output-related performance
                                                strategies and targets, indicating their program was not fully aligned
                                                with GPRA’s outcome-oriented focus on results.

                                                Additionally, there was an absence of data to support color ratings and
                                                invalid data was used to support green ratings (i.e., “fully achieved”) for
                                                performance targets. LS should create outcome-oriented performance
                                                targets to align its program with GPRA and implement an internal
                                                control system that ensures valid and verifiable program performance
                                                data. These findings parallel Library-wide audit findings from our
                                                previous performance-based budgeting audit reports.

                                                Management concurred with our recommendations.

                                                Law Library
                                                Improvements Needed to Secure and
                                                Preserve Rare Library Collection Materials

                                                Attestation Report No. 2010‐AT‐102
                                                January 2011

                                                The Library of Congress Law Library (LL) provides legal research
                                                material to the Congress and is the de facto national law library with
                                                a collection of almost 3 million items, including 60,000 rare items.
                                                We conducted the audit due to concerns over security controls for
                                                those rare items, as well as concerns over the possible lack of secure
                                                storage for some of the rare items. Although the LL maintains a vault,
Above Center: Great Hall, Detail of Ceiling
Showing Sculpture of Two Female Half-Figures.
Photograph by Carol Highsmith, 2007.

 11 • Semiannual Report to the Congress
                                        there is some overflow of rare
                                        material housed elsewhere.
                                        The Architect of the Capitol
                                       (AOC) requested funding
                                       for construction of a second
                                       vault along with other secure
                                       facilities in FY 2008, 2009
                                       and 2010. To date, Congress
                                       has not approved the requests.
                                      Summaries of significant issues
                                 we identified during our audit follow.

                        Note: Due to the sensitive nature of our report,
                   some findings shown here may have been altered or
              redacted.

     Lack of Vault Space Leaves Rare Items Vulnerable to Theft and
Environmental Threats—The Library’s Strategic Plan for Safeguarding
the Collections, 2005-2008, defined the Library’s minimum physical
security controls for protecting the rare and valuable materials in its
custody. We found that the LL was storing approximately 37,000 rare
items in stacks with non-rare items because space was not available
in the vault. Doing so left those rare items vulnerable to theft and
environmental damage because they were not afforded the required
level of security and environmental control. In the absence of funding
for a second vault, we recommended that the LL attempt to ensure
all rare materials are isolated from the non-rare materials, and are
provided the maximum practical physical security and environmental
controls that are specified in the Strategic Plan for Safeguarding the
Collections, 2005-2008.

The Library Needs to Improve Accountability for Rare Materials—
While it is important for the Library to create and maintain complete
records of rare collection items to account for them when they
temporarily leave the organization’s custody, it is equally important to
be able to prove the Library’s ownership of the rare collection items.
At the time of our audit, there was no assurance that the Library
would be able to prove ownership of all rare materials because it does
not mark all rare items to evidence ownership. We recommended
that the Library consult with the Preservation Directorate about the
use of high-resolution photography or other means to prove Library
ownership of its rare materials.



                                                                      Semiannual Report to the Congress • 12
                                                Employees with Rare Vault Access Need Additional Background
                                                Investigations—Conducting background checks on employees
                                                who are required to handle sensitive data or valuable assets is a
                                                basic element of personnel security. Requiring LL staff with vault
                                                access to obtain a public trust security designation can further
                                                improve controls. At the time of our fieldwork, this was not a
                                                Library requirement. However, the Library is currently revising its
                                                regulations to define public trust positions as those with “…regular
                                                access to or responsibility for safeguarding or controlling collections
                                                material of significant historical, cultural, or monetary value…”
                                                We recommended that LL management take the necessary action,
                                                in coordination with the Library’s Personnel Security Office (PSO),
                                                to have the positions of the employees who have access to rare LL
                                                materials designated as public trust positions.

                                                Management concurred with our recommendations.

                                                Library-Wide
                                                Cloud Computing Survey
                                                October 2010

                                                We conducted a high-level survey of ‘cloud
                                                computing,’ a technology that uses remote
                                                computers to provide various services to local
                                                users through the Internet. We reviewed its
                                                applicability to the Library environment, and
                                                the current state of the Library’s information
                                                technology infrastructure with respect to
                                                cloud computing. The potential benefits of
                                                cloud computing include significant cost
                                                and energy savings by reducing the need to
                                                make expensive investments in technology
                                                while increasing the efficiency of computing
                                                resources at the Library.

                                                Under the National Digital Information
                                                Infrastructure and Preservation Program,
                                                the Library entered a one-year pilot program
                                                with a nonprofit organization to test cloud
                                                technologies to enable perpetual access to
                                                digital content. We urged the Library to
                                                further investigate other avenues through
                                                which it can take advantage of cloud
Center: Great Hall, Detail of Paired Sculp-
tures of Minerva of Peace and Minerva of War.
Photograph by Carol Highsmith, 2007.

 13 • Semiannual Report to the Congress
computing to gain increased efficiencies. After further federal guidance
on implementing cloud computing is created, we will conduct a review
of the Library’s consideration and application of cloud computing.

Library-Wide
The Library Needs Better Data and Guidance
to More Effectively Select its Mix of Workforce

Audit Report No. 2010‐PA‐105
March 2011

Like other federal agencies, the Library of Congress relies on a workforce
that includes federal employees and private sector contractors to
carry out its mission. Its objectives in doing so are to maintain cost-
effective operations, state-of-the-art operational practices, institutional
knowledge, and organizational control.

Our report provided the results of an audit we performed on the
process the Library uses to determine whether contractor personnel or
federal government employees should perform needed services. Our
objectives were to 1) identify and evaluate the specific procedures that
the Library uses in making its personnel determination decisions, 2)
                         evaluate the quality of data that the Library
                         collects and maintains to analyze its total
                         workforce needs, and 3) assess the impact of
                         information regarding Library personnel who
                         may be incorrectly classified as contractors.

                          We determined that:

                          	 • The Library does not have an agency-wide 	
                          	   procedure for determining whether to
                              perform a function with federal employees
                              or contractors,
                          	 • The quality of contractor data that the 	
                          	   Library collects and maintains needs to be 	
                          	   improved and should be part of its
                          	   total workforce data used for human
                          	   capital planning, and
                          	 • The Library may have unpaid federal 		
                          	 withholding tax liabilities related to work
                              performed by misclassified contractors.

                          Further details on our audit results follow.



                                                                         Semiannual Report to the Congress • 14
                                               The Library Needs a Structured Procedure for Determining
                                               Whether to Perform Functions with Federal Employees or
                                               Contractors—The Library does not have a structured assessment
                                               procedure to help its service units determine whether contractor
                                               personnel or federal employees are best suited to perform various
                                               services. Executive branch agencies follow a structured process to
                                               make these determinations, but as a legislative branch agency, the
                                               Library is not required to follow this guidance. Two cost comparisons
                                               we performed revealed that in two instances, the Library spent less
                                               on contractors than federal employees. Absent a structured process,
                                               however, there is no assurance that the Library will choose the best
                                               value in future cases, based on cost and other relevant factors. We
                                               recommended that the Library establish a procedure that provides
                                               an organized method for implementing elements of best practice
                                               guidance in personnel-determination decision-making.

                                               The Library Needs to Consider Contractors in its Human Capital
                                               Planning—The Library does not maintain collective data representing
                                               the total composition of its workforce, including contractors. As
                                               a result, a complete and accurate picture of the Library’s human
                                               capital status is unavailable. Without such information, it may not
                                               be possible for the Library to perform effective analyses regarding
                                               existing workforce challenges or to develop meaningful strategies
                                               to address its future personnel needs. We recommended that the
                                               Library collect and maintain data on the skills and labor categories of
                                               the Library’s contractor workforce.

Above: Detail of Sculpted Wreath Surrounding   The Library Needs to Determine if its Independent Contractors
the Lamp of Learning, Second Floor Corridor,
Thomas Jefferson Building.                     are Correctly Classified—The Library may have unpaid federal
Photograph by Carol Highsmith, 2007.
                                               withholding tax liabilities if any of its nonpersonal services contractors
                                               are performing work that qualifies them as an employee from an
                                               Internal Revenue Service (IRS) perspective. This possibility likely
                                               would not have arisen if the Library had a structured framework that
                                               incorporated IRS guidelines on factors for determining a worker’s
                                               employment classification. We recommended that the Office of
                                               Contracts and Grants Management promptly identify nonpersonal
                                               services contracts in which employer-employee relationships may
                                               have been established between the Library and the contractor
                                               personnel and, for such cases, determine 1) in consultation with the
                                               Office of the General Counsel (OGC) whether the contracts should
                                               be terminated, and 2) in consultation with the OGC whether the
                                               Library has any unpaid withholding tax liabilities related to contractor



      15 • Semiannual Report to the Congress
personnel determined to be “employees.” Subsequent to our audit,
the OGC informed us that a review of contractors found none that
were misclassified.

Management concurred with our recommendations.

Office of Security and
Emergency Preparedness
Survey of the Personnel Security
Office’s Policies and Procedures

Audit Survey Report No. 2011-PA-102
March 2011

The Library of Congress Personnel Security Office (PSO) is
responsible for managing the Library’s personnel security and
suitability programs, including the initiation of required background
investigations of staff, contractors, and volunteers. We conducted a
survey to evaluate various aspects of these programs. Specifically, we
sought to determine whether 1) the PSO properly followed Library
procedures in identifying positions that require access to classified
information, 2) Library positions, with access to valuable Library
collections, are assigned, at minimum, the public trust designation, 3)
the PSO was satisfactorily managing investigative case files for Library
personnel, and 4) the PSO provides appropriate protection for the
personal information it collects and maintains.

Based on our survey, we concluded that the PSO was satisfactorily
managing the Library’s personnel security and suitability program and
that further review was unnecessary. Summaries of the survey work
that we performed are provided in the following paragraphs.

The PSO Determines Security Clearance Eligibility According to
Federal Requirements—The PSO follows federal requirements when
determining an employee’s security clearance eligibility. As part of
our survey, we reviewed the investigative files of 15 Library employees
who held a security clearance to determine whether they satisfied the
eligibility requirements for such a designation. Our review concluded
that all 15 satisfied the eligibility requirements for a security clearance.

The PSO is Revising Library Regulations to Address Designations
of Staff Positions Providing Access to Valuable Collection Items—
Our testing confirmed a condition we identified through prior audit
work. Specifically, some positions in the Library which have access
to valuable collections are designated the lowest, nonsensitive level.



                                                                           Semiannual Report to the Congress • 16
                                    These nonsensitive level positions require less stringent background
                                    investigations than those designated as public trust, sensitive, or
                                    national security. Our prior reports recommended that individuals
                                    with access to valuable collection items be subject to more stringent
                                    background investigations to reduce the risk to the collections.

                                    We found that the PSO is making satisfactory progress in addressing
                                    this risk. The PSO is currently 1) drafting a policy revision to clarify
                                    the Library’s definition of public trust positions, 2) planning necessary
                                    changes to ensure Library positions which have access to valuable
                                    collection items are assigned, at minimum, a public trust designation,
                                    and 3) planning to request the Office of Personnel Management
                                    (OPM) to reinvestigate the backgrounds of those employees which
                                    the PSO re-designates to ensure they are suitable for their positions.

                                    The PSO Complies with OPM Minimum Investigation
                                    Requirements—Library regulations require the PSO to conduct
                                    no less than the minimum investigation requirements prescribed by
                                    OPM. We tested the PSO’s compliance with those requirements
                                    and concluded that the PSO was satisfactorily complying with the
                                    minimum investigation requirements as prescribed.

                                    The PSO has Adequate Controls to Safeguard Personal
                                    Information—The PSO relies heavily on personal information
                                    provided by individuals to assess their suitability for Library
                                    employment. We reviewed key controls the PSO had in place to
                                    properly protect the personal information it collects and maintains.
                                    Based on our review of key physical safeguards and personnel
                                    procedures that the PSO has in place, we concluded that the office
                                    provides adequate protection for the personal information it collects
                                    and maintains.

                                    Library-wide
                                    Improper Payments Review

                                    Review Report No. 2010-AT-103
                                    March 2011

                                    For years, news reports have cultivated public scorn with stories of
                                    excessive improper payments by federal agencies for everything from
                                    $500 hammers to space ship lavatory facilities. Today, attention to
                                    federal agency control over improper payments has increased due to
                                    the country’s dire fiscal conditions and the need to rein in all unneces-
                                    sary federal spending.


17 • Semiannual Report to the Congress
In an effort to evaluate the Library’s exposure to improper payments
and to assist Library management in detecting and preventing them,
the OIG implemented a program of ongoing limited reviews to detect
improper payments at the Library. This was the first in a planned series
of those reviews.

Improper payments are generally defined as payments that should not
have been made or were made in incorrect amounts. Any payment an
agency makes to an ineligible recipient or for an ineligible service, du-
plicate payment, payment for services not received, and payment in an
incorrect amount meets the definition of an improper payment. In ad-
dition, when an agency cannot discern the propriety of a payment due
to insufficient documentation, the payment also qualifies as improper.

Our analysis focused on FY 2010 disbursements to ascertain whether
the Library made any duplicate payments. Two duplicate payments
were found in the amount of $1,628 and $1,030. At the time we
identified these payments, we determined that program officials had
already detected the improper payments and were in the process of
pursuing the erroneous transactions. We concluded that the Library’s
internal controls for preventing and detecting duplicate payments
were operating effectively.

Despite these results, the Library cannot rely on prior internal con-
trol compliance to assure that future disbursement activity does not
result in improper payments. Given the importance of improper pay-          Below: Main Reading Room, Detail of
                                                                            Capitals of Engaged Columns.
ment control in today’s fiscal environment, our office plans to conduct     Photograph by Carol Highsmith, 2007.
ongoing lim-
ited reviews of
improper pay-
ments and in-
tends to expand
the scope of the
transactions ex-
amined.
National Digital Information Infrastructure
and Preservation Program

Cooperative Agreement with North Carolina
State University, University of California -
Santa Barbara, and University of Maryland

Audit Report No. 2010-FN-101
December 2010

The Library’s National Digital Information Infrastructure and Preservation
Program (NDIIPP) was created by special legislation in December 2000
in recognition of the importance of preserving digital content for future
generations. Since then, the Library has recruited more than 185 digital
preservation partners in more than 44 states and 25 nations.

Our office contracted with the independent public accounting firm Kearney &
Company (Kearney) to perform audits of the NDIIPP cooperative agreements
with North Carolina State University (NCSU), University of California - Santa
Barbara (UCSB), and University of Maryland (UMD) to determine compliance
with relevant federal and university guidance and the terms of the agreements.
Specifically, Kearney evaluated the design and operating effectiveness of internal
controls, assessed expenditures for grant compliance, and assessed the accuracy
and validity of reporting to the Library. These three cooperative agreements
which were entered into in September 2004 have since been completed and are
now closed.

The scope of the audits included obtaining an understanding of the policies,
requirements, and processes of selected risk areas to identify key internal
controls. During the audits, Kearney applied internal control compliance and
substantive testing procedures to the selected risk areas for expenses reported
to the Library through December 31, 2009 for NCSU and UCSB, and March
31, 2010 for UMD.

Kearney found that internal controls were designed effectively, grant
expenditures were in compliance with grant terms and conditions, and
quarterly and annual reporting was accurate, valid, and in accordance with the
Cooperative Agreements, except for certain administrative items which did not
affect the audit opinions as a whole.




Left: View of the Washington Monument from
the Thomas Jefferson Building. Doors Flanked by
Pompeiian Panels of Prudence and Temperance.
Photograph by Michael Dersin.
                                                                         Semiannual Report to the Congress • 20
                                         In connection with the audits, we reviewed Kearney’s reports and
                                         related documentation and inquired of its representatives. Our
                                         review disclosed that in all material respects, the audits complied
                                         with generally accepted government auditing standards.

                                         Library of Congress
                                         Fiscal Year 2010 Financial Statements
                                         Audit Report No. 2010-FN-101
                                         March 2011

                                         Under contract with our office, Kearney audited the Library’s
                                         Consolidated Balance Sheets as of September 30, 2010 and 2009;
                                         the related Consolidated Statements of Net Costs, and Changes in
                                         Net Position; and the Combined Statements of Budgetary Resources
                                         for the fiscal years then ended. In the auditor’s opinion, the financial
                                         statements, including the accompanying notes, presented fairly, in
                                         all material respects, the financial position of the Library and its
                                         net costs, changes in net position, and budgetary resources for the
                                         years then ended, in conformity with accounting principles generally
                                         accepted in the United States of America.

                                         In planning and performing the audit, the auditors considered and
                                         tested for compliance of internal controls over financial reporting
                                         and compliance with laws and regulations where noncompliance
Above: Pompeiian Panel Depicting
                                         would have a direct and material effect on the financial statements.
Temperance.
Photograph by Sarah E. Sullivan, 2011.
                                         The auditors noted no matters involving internal control and its
Right: Bust of Dante, Exterior of the
                                         operations that they considered material weaknesses or significant
Thomas Jefferson Building.               deficiencies. They also found no instances of noncompliance with
Photograph by Jennifer R. Bosch, 2011.
                                         laws and regulations or other matters requiring reporting under
                                         generally accepted government auditing standards.

                                         James Madison Council Fund
                                         Fiscal Year 2010 Financial Statements

                                         Audit Report No. 2010-FN-101
                                         March 2011

                                         The James Madison Council is an advisory body of public-spirited
                                         individuals who contribute ideas, expertise, and financial support
                                         to promote the Library’s collections and programs. The James




 21 • Semiannual Report to the Congress
Madison Council Fund (Fund) was established in 1989 to encourage
contributions not only for current programs, but permanent
endowments that will impact the collections and programs in the
future.

Under contract with our office, Kearney audited the Fund’s FY 2009
financial statements and issued its Independent Auditor’s Report.
The audit included the Fund’s statement of financial position as of
September 30, 2010, and the related statements of activities and
cash flows. The auditors concluded that the financial statements
were presented fairly, in all material respects, and in conformity
with generally accepted accounting principles. The auditors found
no material weaknesses or significant deficiencies in internal control
over financial reporting, nor any instances of noncompliance with
laws and regulations that are required to be reported under generally
accepted government auditing standards.

For both the Library of Congress and Fund financial statements
audits, we performed the following steps to ensure the quality of
Kearney’s work:

    •	   Reviewed the auditor’s approach and planning of the audits,
    •	   Reviewed significant workpapers,
    •	   Evaluated the qualifications and independence of the 		
	        auditors,
    •	   Monitored the progress of the audits at key points,
    •	   Coordinated meetings with Library management to
	        discuss progress, findings, and recommendations,
    •	   Performed other procedures we deemed 		
	        necessary, and
    •	   Reviewed and accepted Kearney’s report.




                                                                         Semiannual Report to the Congress • 22
Investigations
During the reporting period, we opened 43 investigations and closed 25. We forwarded four investigation
cases to Library management for administrative action. One case was forwarded to the Department of Justice
for criminal prosecution and two are pending. Investigation case and Hotline activities are detailed below.


 Table 1: 	          Investigation Case Activity
                                               Criminal/Civil   Administrative              Total
 From Prior Reporting Period                          29             17                      46
 Opened                                               18             25                      43
 Closed                                               10             15                      25


 End of Period                                        37             27                      64


 Table 2: 	           Hotline Activity
                                                                           Count
 Allegations received                                                        33
 Referred to management for action                                               4
 Opened as investigations                                                    14
 Opened as audit                                                                 0
 Closed with no action                                                       15




Right: Gilded Door of the Rare Book and Special
Collections Reading Room Featuring Printers’ Marks.
Photograph by Sarah E. Sullivan, 2011.

 23 • Semiannual Report to the Congress
                                                       Significant Criminal and
                                                       Administrative Investigations

                                                       DDOS Attack on the Copyright Office

                                                       OIG investigators worked with the FBI on a distributed denial of service
                                                       (DDOS) attack investigation. The two-day attack began on November
                                                       3, 2010 and affected the server hosting the Copyright Office’s Web site.
                                                       It significantly slowed down the Web site and affected the processing of
                                                       numerous electronic copyright applications. We provided the alleged
                                                       attackers’ internet protocol (IP) addresses, which are being used to pros-
                                                       ecute at least two individuals. We determined that the individuals had
                                                       no previous relationship with the Library.

                                                       Pornography Access in Reading Rooms

                                                       Our review of Internet logs showed that a computer in a Library read-
                                                       ing room was used to access pornography when the Library was closed.
                                                       Reading room video and other information identified the individual at
                                                       the computer as a U.S. Capitol Police (USCP) civilian employee. We
                                                       referred the case to the USCP.

                                                       In a second case, we challenged a patron who was viewing pornography
                                                       in a Library reading room. In a third case, Internet logs and security
                                                       video showed that a reading room computer was used by an employee
                                                       of a Library contractor to search for terms possibly associated with child
                                                       pornography. The employee was removed from the Library contract.
                                                       We will be issuing a separate report on the apparent abuse of reading
                                                       room computers with Internet access.

                                                       Misuse of Library Computers

                                                       An OIG investigation determined that an employee, with discretion
                                                       and managerial responsibility within the Library, made improper per-
                                                       sonal use of a Library computer, contrary to Library policy and com-
                                                       mon standards of professionalism. The Library, without consulting the
                                                       OIG as to the terms or conditions, entered into a settlement agreement
                                                       with the employee that limits the Library’s right to disclose the under-
                                                       lying facts of the investigation and the terms of the agreement. Based
                                                       on the constraints of the agreement as well as the risk of litigation and
                                                       money damages against the Library, the OIG will forgo further com-
                                                       ment on this matter.


Above: Early Book Plate for the Library of Congress.

 25 • Semiannual Report to the Congress
Misuse of Library Equipment and Time

During our investigation of two employees in the same office (one re-
ported during the prior semiannual period) for alleged ethics violations,
we determined that the employees’ supervisor had not provided adequate
ethics guidance. Our investigation revealed that the supervisor did not
closely monitor significant programmatic activities or provide the ap-
propriate ethics guidance about personal conflicts of interest to employ-
ees under their supervision. We also discovered that the supervisor was
conducting a personal business during official work hours using a Library
computer. We recommended that the Library’s Office of General Coun-
sel (OGC) provide periodic ethics training to the office and other senior
Library managers. The supervisor received a written reprimand for con-
duct unbecoming a senior level manager.

Conflict of Interest

We received information that an employee gave preferential treatment to
certain Library vendors in return for discounts relating to the employee’s
personal affairs. Our investigation disclosed a pattern of apparent pref-
erential treatment by the employee to Library vendors that corresponded
with the timeframe when the vendors provided personal discounts to the
employee.

The Department of Justice declined to prosecute, in part, due to the lack
of ethics training and guidance the employee had received on potential
conflicts of interest. The employee received a five-day suspension.

Sale of Pirated DVDs

We received an anonymous allegation that an Architect of the Capitol
(AOC) employee was selling illegally made DVDs of unreleased motion
pictures to a USCP officer on Library property. We conducted a joint
investigation with the AOC and USCP OIGs, the FBI, and investigators
from the Motion Picture Association of America and found that the un-
released DVDs were not produced from the specific DVDs submitted to
the Library for copyright protection.

The Department of Justice declined prosecution. The AOC OIG re-
ported that the employee was terminated. We were unable to obtain
information on the disposition of the USCP officer who had purchased
the pirated DVDs.




                                                                     Semiannual Report to the Congress • 26
                                    Pirated NLS Talking Books

                                    We investigated the Internet sales of several Talking Books which
                                    we believed were pirated copies of books produced by the Library’s
                                    National Library Service for the Blind and Physically Handicapped
                                    (NLS). Our investigation identified a foreign national suspect and
                                    linked his access to the books to a local library in his country.

                                    We found that there are no contractual agreements between the NLS
                                    and foreign libraries receiving NLS Talking Books, and no apparent
                                    authority to distribute the books to parties other than U.S. citizens
                                    living abroad. In November 2010, we reported our findings to
                                    the OGC and suggested suspension of the activity if no statutory
                                    basis exists for distribution to foreign nationals. We have not been
                                    advised of the legal status of the program and the NLS continues to
                                    lend Talking Books to foreign libraries and pirated NLS products
                                    continue to be offered for sale on the Internet. We estimated that
                                    the cost of producing and distributing the books to foreign citizens
                                    was about $700,000 over the past five years. Officials at the foreign
                                    library receiving NLS Talking Books declined to cooperate with our
                                    investigation.

                                    Microsoft Outlook Migration

                                    We received a Hotline allegation that the Library’s migration to Mi-
                                    crosoft Outlook email service was mismanaged. Specifically, the call-
                                    er stated that 1) the conversion from GroupWise email to Outlook
                                    had been mishandled, 2) the project manager in charge of the migra-
                                    tion was given special treatment and protected from his mistakes,
Above: Book End Paper Showing       and 3) allocated funding for the project was used for other unrelated
an Antique Spots Pattern from
the Rare Book Collection.           purchases.

                                    We found some validity to the first two allegations. There are prob-
                                    lems in the email archiving portion of the project because of Infor-
                                    mation Technology Services’ (ITS) failure to take into account (and
                                    notify vendors of ) its practice of recycling email addresses, which
                                    complicates transferring existing archives. Also, the hiring of the
                                    ITS employee in charge of the migration project by the Congres-
                                    sional Research Service (CRS) may have the appearance of a conflict
                                    of interest due to the relationship between the CRS selecting official
                                    and the former ITS project manager. We recommended appropriate
                                    ethics guidance to the individuals involved in the selection process.




 27 • Semiannual Report to the Congress
Marijuana Possession

The USCP notified the OIG of its arrest of a Library employee
off Library grounds for marijuana possession with the intent
to distribute. The USCP asserted that the employee attempted
to discard the marijuana while being apprehended by police. A
criminal case against the employee was dismissed by the District
of Columbia Superior Court because the evidence was suppressed.
During our administrative inquiry into the matter, the employee
admitted to OIG investigators to possessing marijuana outside
the Library while on a break from duty. We determined that the
employee also attempted to falsify his time sheet for the time spent
incarcerated. The employee served a 30-day suspension but is
appealing the adverse action through an administrative hearing.

Employee Misconduct

We initiated a preliminary inquiry regarding allegations of
harassment and sexual misconduct on Library premises, but could
not substantiate nor repudiate most of the allegations because
both parties lacked credibility. The case was referred to Library
management for administrative action. One employee served a
20-day suspension for insubordination and other misconduct,
five of which are being held in abeyance for a year absent further
misconduct.

Attempted Misuse of a Government Vehicle

We received a Hotline allegation that a Library employee attempted
to use an official government vehicle to attend a funeral by fabricating
the purpose of the vehicle’s use after being told that a government
vehicle could not be used for the intended purpose. We confirmed
the allegation and referred the matter to Library management. The
employee is appealing a proposed adverse action.




                                                                       Semiannual Report to the Congress • 28
                                                 Follow-up on Investigative Issues
                                                 from Prior Semiannual Reports

                                                 Identity Theft

                                                 As previously reported, we initiated an investigation into the theft
                                                 of a Library employee’s identity. While executing a search warrant
                                                 at a suspect’s residence, OIG special agents obtained evidence which
                                                 showed that the Library employee’s personal identifying information,
                                                 and that of six victims outside the Library, were used by the suspect
                                                 multiple times for fraudulent credit applications and purchases.

                                                 During this reporting period, a grand jury indicted the suspect on
                                                 two-counts of aggravated identity theft and use of an unauthorized
                                                 access device. The suspect, incarcerated for an unrelated matter, has
                                                 agreed to a plea agreement and is facing a maximum of 30 months
                                                 incarceration along with any restitution and/or fines imposed by the
                                                 court.

                                                 Pornography

                                                 We previously reported the case of an employee who used Library
                                                 reading room computers after hours to view pornography. The
                                                 employee had been previously disciplined for using his Library
                                                 computer in a similar manner and retired after being notified that his
                                                 employment was being terminated.

                                                 Also reported in a previous semiannual report, an employee received
                                                 a 25-day suspension for viewing pornography and other misconduct.
                                                 After an appeal and grievance were denied, the employee requested
                                                 arbitration at an administrative hearing where a confidential
                                                 settlement was reached.




Right: The Library of Our Father’s Collection.
Photograph by Cyndi A. Wood.

 29 • Semiannual Report to the Congress
                                Other Activities (Including Peer Reviews)
                                OIG Responds to Senate Request

                                The OIG responded to an April 2010 request from Senators Charles E.
                                Grassley and Tom Coburn about agency interference with OIG activities.
                                Specifically, the Senators requested biannual reporting by all statutory
                                federal inspectors general concerning 1) objection to oversight and
                                problems accessing information, 2) disclosure of the results of our work on
                                a public Web site, and 3) threats or impediments in communicating with
                                the Congress.

                                We reported no agency interference during this semiannual period. In
                                addition, we responded to a request from Senator Grassley’s office for
                                additional information pertaining to our reply for the semiannual period
                                ending September 30, 2010.

                                Capitol Police Operations at the Library

                                The Library’s police operations merged with the USCP at the beginning of
                                FY 2010. Although there was a memorandum of understanding between
                                the Library and the USCP prior to the merger, there were facets of the day
                                to day operational interaction between the two agencies not covered by
                                the agreement that we believed needed further discussion. Accordingly,
                                we wrote two memorandums and held discussions with the Librarian and
                                the USCP about sharing information, collections security, and employee
                                rights.

                                Digital Reference Services

                                We reviewed a November 29, 2010 report from Library Services on digital
                                reference services. Although we found the report well researched and
                                written, we offered some comments to the Associate Librarian for Library
                                Services concerning 1) the consistency in the collection and reporting
                                methodology for digital reference transactions and 2) carefully reviewing
                                the declining number of digital reference transactions with consideration
                                for consolidating service resources.

                                Inspector General Panelist in Collections Security Forum

                                Along with the Inspectors General of the Smithsonian Institution and the
                                National Archives and Records Administration (NARA) and others, the
                                Inspector General served as a panelist at the forum, Protecting Our Na-
                                tional Treasures: The Impact and Prevention of Archival Theft, held March 3,
                                2011 at NARA. Participants discussed the various ways that their agencies
                                and OIGs approach securing the collections and OIG collections security
                                oversight at three of the nation’s prominent federal cultural institutions.



31 • Semiannual Report to the Congress
Peer Review of the U.S. Government Printing Office
for the Two Year Period Ending September 30, 2010

High quality auditing is essential for government accountability to the
public and assures transparency in government operations. The concept
of accountability for the use of public resources and government authority
is essential to the democratic process. Our federal government relies on
its Inspectors General to operate the auditing machinery that examines
government accountability and to provide a clear and consistent lens
through which the public can view its government at work.

To ensure consistent, high quality auditing by Inspectors General, federal
auditors are required to conduct their operations in compliance with the
United States Government Accountability Office’s Government Auditing
Standards. These standards provide a framework for conducting high
quality government audits and attestation engagements with professional
competence, integrity, objectivity, and independence. The Inspectors
General must design their auditing policies and procedures to provide
reasonable assurance of complying with professional standards and
applicable legal and regulatory requirements.

To assure auditors operate transparently and with accountability, the
standards require audit organizations to have an appropriate system of
quality control and to undergo external peer reviews at least once every
three years. The peer review process is overseen by the Council of the
Inspectors General on Integrity and Efficiency (CIGIE) which schedules              Above: Early Book Plate for
                                                                                    the Library of Congress.
and assigns Inspectors General to conduct the peer reviews. During the
most recent semiannual period, CIGIE assigned our office to conduct a
peer review of the audit organization of the U.S. Government Printing
Office (GPO) OIG.

We conducted the peer review for the two-year period ending September
30, 2010 in accordance with generally accepted government auditing
standards and guidelines established by the CIGIE. In our opinion, the
GPO OIG audit organization’s system of quality control was suitably
designed and complied with to provide it with reasonable assurance of
performing and reporting in conformity with applicable professional
standards in all material respects. Therefore, we issued a peer review
report, with a rating of “pass.” As is customary, we also issued a letter of
findings that we did not consider to be of sufficient significance to affect
the opinion we expressed in our report.




                                                                      Semiannual Report to the Congress • 32
Review of Legislation and Regulations

Table 3:                  Review of Library of Congress Regulations (LCRs)
       LCR Reviewed                          Comments by the Office of The Inspector General (OIG)
                                We continued working with this LCR, commenting that the regulation should rephrase certain areas
LCR 1615-1			
                                we believed were unclear. We also commented that the LCR should add a paragraph describing the
Inventory Control
                                responsibilities of service unit liaisons when disposing of fully depreciated assets.
LCR 1617			
Inspection of Government        We offered no comment regarding this LCR.
Property
LCR 1621		
Staff Use of Electronic         We offered no comment regarding this LCR.
Communications Systems
LCR 1740                        We suggested that this LCR add a section requiring the Office of the Chief Financial Officer (OCFO)
Non-Library Funds               to report suspected abuse to the OIG. We also commented that this LCR add a section on the
Official Travel                 consideration of conflicts of interest and other Library of Congress Standards of Conduct issues.

LCR 1815-1			                   We commented that this LCR should address the merger of Library police and the U.S. Capitol Police
Reporting of Missing or         (USCP). We also commented that some of the titles used in the LCR were not currently in use and
Stolen Library Property         should be updated.

LCR 1514-8		                    We commented that this LCR add specific language to further define its “Recordkeeping for Audit
Federal Tort Claims Act         Purposes” section.

LCR 2025-8			                   We commented that proposed funding requirements in this LCR change and the Library consider
Americans with                  a centralized funding source so that service and support units do not have to make an employment
Disabilities Act                decision for persons with disabilities based on budgetary concerns.
LCR 2010-7			
Employment of                   We offered no comment regarding this LCR.
Non-U.S. Citizens
LCR 1514-9		                    We suggested that this LCR state that the Office of General Counsel (OGC) may request the
Personal Property               assistance of the OIG in reviewing and investigating the validity of claims. We also suggested the
Loss or Damage                  LCR require that any violation is promptly reported to the OIG.
LCR 2020-5		                    We recommended that this LCR require Human Resources Services (HRS) to immediately notify
Leave Policy                    OIG on any decision to place an employee in indefinite suspension.
                                We commented that this LCR add additional language to further clarify the responsible official
LCR 2010-12		                   determinations of “exceptional circumstances.” We also commented that no procedures were
Probationary Period             included for a supervisor’s failure to provide timely evaluations; commenting that it might be
for Supervisory or              helpful to issue a directive requiring HRS to notify supervisors of affected employees in due
Management Staff                time to help ensure timely evaluations. We also commented that the LCR should clarify if
                                an employee has an entitlement from previous positions along with additional clarifications.




33 • Semiannual Report to the Congress
Unimplemented Recommendations
Table 4A: 	        Significant Recommendations from Previous Semiannual
                   Reports for Which Corrective Action Has Not Been Completed
        Subject            Report No.           Office         Rec. No.      Summary and Status of Recommendation
                           Issue Date
Office of the Librarian
                                                                          The Development Office (DO) should ensure that the Rais-
Raiser’s Edge              2006-IT-302       Development                  er’s Edge system undergoes certification and accreditation
                                                                  II
Software Program          December 2007         Office                    (C&A)—The C&A is in progress but completion delayed
                                                                          until June 2011.
                                                                          System managers for Rasier’s Edge should regularly review
                                                                          the system’s transaction logs for suspect data events—Infor-
Raiser’s Edge              2006-IT-302       Development
                                                                  III     mation Technology Services (ITS) does not have a system ca-
Software Program          December 2007         Office
                                                                          pable of reviewing the system logs and is pursuing the vendor
                                                                          for costing to determine if it is cost beneficial to implement.
Office of the Chief of Support Operations
                                                                          Evaluate and revise LCR 2010-3.1—The Director of the Of-
                                               Office of
Equal Employment                                                          fice of Opportunity, Inclusiveness and Compliance (OIC)
                           2001-PA-104      Opportunity, In-
Opportunity                                                        I      completed the final LCR draft as recommended. The draft
                           February 2003    clusiveness and
Complaints Office                                                         LCR is under OGC reveiw without an assigned target date
                                              Compliance
                                                                          for completion.
                                                                          Revise LCR 2020-7 to allow complainants to use dispute
                                               Office of                  resolution during the formal complaint process—This
                           2002-PA-104
Dispute Resolution                          Opportunity, In-              recommendation remains unimplemented. OIG strongly
                            September                             III
Center                                      clusiveness and               recommends that the Director of OIC submit final draft
                              2003
                                              Compliance                  recommendations for the LCR to OGC this semiannual
                                                                          period.
                                                                          Track promotions and performance evaluations to determine
                                                                          whether there is consistency among groups—OIC has con-
                                               Office of
                                                                          ducted a comprehensive assessment of diversity trends in the
Diversity Management       2008-SP-104      Opportunity, In-
                                                                 II.5     Library’s workforce between 1994 and 2009 including an
Program                     July 2008       clusiveness and
                                                                          analysis of promotions and performance evaluations. OIC
                                              Compliance
                                                                          will initiate the FY 2010 Workforce Analysis Report in the
                                                                          fourth quarter of FY 2011.
                                                                          The Library should make its No Fear data available to staff
                                               Office of
                                                                          via the Library’s Staff Intranet Web site and benchmark this
Diversity Management       2008-SP-104      Opportunity, In-
                                                                  IV      data against other federal agencies of similar size—The OIC
Program                     July 2008       clusiveness and
                                                                          expects to post the first NO FEAR report by the third quarter
                                              Compliance
                                                                          of FY 2011.
                                                                          Organize a facilitative workshop with program supervisors,
                                                                          HRS, and OIC staff to discuss identified barriers—The OIC
                                               Office of
                                                                          is collaborating with the Library’s Human Capital Manage-
Diversity Management       2008-SP-104      Opportunity, In-
                                                                 II.7     ment Flexibilities Working Group and service unit manag-
Program                     July 2008       clusiveness and
                                                                          ers to devise an action plan to identify and remove potential
                                              Compliance
                                                                          barriers to equal employment opportunities. OIC expects to
                                                                          have the action plan completed by the end of FY 2011.
                                                                          Replace the competition advocate with a qualified person
                                               Office of
                           2010-CA-102                                    that has extensive experience in federal procurement law—
Sole Source Contract                         Contracts and
                            September                            c.2      Currently the Acting Chief of Contracts is serving in the role
Award–Power Tech                            Grants Manage-
                              2010                                        of Competition Advocate pending the arrival of a GS-13 Pro-
                                                ment
                                                                          curement Analyst.




                                                                             Semiannual Report to the Congress • 34
Unimplemented Recommendations
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed
         Subject            Report No.        Office           Rec. No.      Summary and Status of Recommendation
                             Issue Date
 Office of the Chief Financial Officer (OCFO)
                                                                          Include more specific details in internal OCFO written pro-
                                                                          cedures for performing travel card transaction reviews and
                            2009-PA-106                                   delinquency report reviews—OCFO acquired and installed
 Travel Card Program                         Travel Office        I.a
                            January 2010                                  software to evaluate travel card transactions and will develop
                                                                          written procedures by June 2011. Testing of the system and
                                                                          staff training is targeted for completion June 2011.
 Library Services (LS)
                                                                          Establish criteria for specifically defining Top Treasure col-
                                                                          lection items and a clear process to nominate or transfer
 Top Treasures Security
                            2008-PA-103                                   collection items to the category—LS has drafted an LCR
 and Preservation                           Library Services      I.a
                            January 2009                                  that establishes criteria to define Top Treasure items and
 Controls                                                                 developed a form to nominate them for this designation.
                                                                          Target date for issuance is the end of FY 2011.
                                                                          Reevaluate the position designations of staff members with au-
                                                                          thorized vault access who occupy non-sensitive positions and
 Top Treasures Security
                            2008-PA-103                                   revise LCRs dealing with sensitivity designations for positions
 and Preservation                           Library Services      I.c
                            January 2009                                  with access to priceless collection items—A draft LCR estab-
 Controls                                                                 lishing public trust designations for staff with access to the Top
                                                                          Treasures is in process. No target date is established.
                                                                          Develop and implement an automated system to track and ac-
 Rare Book and Special      2008-PA-101                                   count for new acquisitions and establish adequate segregation
                                            Library Services      I.a
 Collections Security       March 2009                                    of duties—LS is developing a solution to this recommenda-
                                                                          tion. No target date is established.
                                                                          Develop and document new policies and procedures for
                                                                          authorizing, tracking, and reviewing collection material on
 Rare Book and Special      2008-PA-101
                                            Library Services      I.c     loan—Rare Book and Special Collections Division (RB-
 Collections Security       March 2009
                                                                          SCD) is developing a new system to track loans. Target
                                                                          date for system implementation is not established.
                                                                          Reevaluate background investigation procedures for RBSCD’s
                                                                          management and periodically update background investi-
 Rare Book and Special      2008-PA-101
                                            Library Services      I.f     gations—Changes to the applicable LCR have been drafted
 Collections Security       March 2009
                                                                          and the OGC has circulated them to Library management for
                                                                          comment. No target date for completion has been established.
                                                                          Explore the costs and benefits of using high-resolution pho-
                                                                          tography to assist in proving ownership of the Library’s rare
 Rare Book and Special      2010-AT-101
                                            Library Service       II      materials—RBSCD officials explored the availability of a
 Collections Security       August 2010
                                                                          high-resolution camera with Preservation. Development of
                                                                          specifications for this process is the next step.
 Integrated Support Services (ISS)
                                                                          Revise LCR 2018-5—Union delays in reviewing the draft
 Federal Employees’
                            2008-PA-102     Health Services               LCR occurred. Labor Relations anticipated a meeting be-
 Compensation Act                                                 IV
                           September 2008       Office                    tween Library management and the union to discuss revisions
 Program
                                                                          in April 2011.
                                                                          Develop and implement policies and procedures that provide
                                                                          an organized means for Library organizations and employees to
                                                                          conform to federal records management requirements—ISS/
 Retention of Federal       2009-PA-104     Office Systems                Records Management Section (RMS) drafted revisions to LCR
                                                                  I.a
 Records                    March 2010         Services                   1920, Directives on records management and on litigation holds,
                                                                          internal standard operating procedures (SOPs), and Freedom of
                                                                          Information Act SOPs. These drafts are now under OGC re-
                                                                          view with completion targeted for third quarter FY 2011.

 35 • Semiannual Report to the Congress
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
        Subject             Report No.        Office        Rec. No.      Summary and Status of Recommendation
                            Issue Date
                                                                       Initiate a program to provide active oversight of service
                                                                       units’ record keeping practices. Ensure that the oversight
                                                                       program’s design provides adequate assurance that service
                                                                       units’ practices comply with the Federal Records Act and
Retention of Federal         2009-PA-104   Office Systems              National Archives and Records Administration regula-
                                                              I. b
Records                      March 2010       Services                 tions—ISS/RMS completed a training presentation and
                                                                       training materials for records coordinators, liaisons, and
                                                                       record keepers, and submitted it to the OGC for feedback,
                                                                       review, and approval. No target date is established for im-
                                                                       plementation.
                                                                       Develop and implement a training program on federal re-
                                                                       cords management for Library staff—ISS/RMS completed
Retention of Federal         2009-PA-104   Office Systems              a training presentation and training materials for records
                                                               I.c
Records                      March 2010       Services                 coordinators, liaisons, and record keepers and submitted
                                                                       this to the OGC for review and approval. No target date is
                                                                       established for implementation.
                                                                       Perform a cost/benefit analysis to determine whether the
Retention of Federal         2009-PA-104   Office Systems              Library should implement an electronic record-keeping sys-
                                                               II
Records                      March 2010       Services                 tem—The Library will initiate a cost/benefit analysis in FY
                                                                       2012 after new procedures are implemented.
Office of Strategic Initiatives (OSI)
                                                                       Produce a plan of execution guide to ensure that the Library
                                                                       moves forward as a total institution with one voice—This
                                                                       will be accomplished through the Enterprise Architecture
                                            Information
Information Technology       2008-PA-105                               (EA) effort, currently in progress. When a baseline is iden-
                                            Technology        1.D
Strategic Planning           March 2009                                tified, a target date will be proposed and approved by the
                                              Services                 Information Technology Steering Committee (ITSC) and
                                                                       Executive Committee (EC). When established, a transition
                                                                       plan will be finalized and approved.
                                                                       Separate the IT function from OSI and have the Chief In-
                                                                       formation Officer report directly to the Librarian or Chief
                                            Information                Operating Officer—Library management will evaluate the
Information Technology       2008-PA-105
                                            Technology        3.A      newly established IT governance processes once they have
Strategic Planning           March 2009
                                              Services                 been operational for a sufficient amount of time. When
                                                                       this evaluation is complete they will reconsider the IT or-
                                                                       ganization.
                                                                       Implement a commercial “off-the-shelf ” enterprise help
                                            Information
Information Technology       2008-PA-105                               desk system that includes metrics—Due to resource con-
                                            Technology        5.D
Strategic Planning           March 2009                                straints the Library has not implemented an enterprise help
                                              Services                 desk system with metrics.
                                                                       Negotiate a new help desk contract to meet the different
                                                                       service level requirements of all service and support units to
                                            Information                eliminate duplicative services—The possibility of duplica-
Information Technology       2008-PA-105
                                            Technology        5.E      tive services is currently being reviewed through the Chief
Strategic Planning           March 2009
                                              Services                 Financial Officer’s study on IT-related procurements. The
                                                                       need for a new help desk contract will be considered once
                                                                       the study is completed.
                                                                       Develop dynamic, evolving metrics to measure perfor-
                                            Information                mance—ITS now has a project charter and a full time
Information Technology       2008-PA-105
                                            Technology        5.F      equivalent employee working on this recommendation. A
Strategic Planning           March 2009
                                              Services                 prototype metrics program is complete and is undergoing
                                                                       testing.



                                                                         Semiannual Report to the Congress • 36
Unimplemented Recommendations
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed

           Subject         Report No.             Office     Rec. No.      Summary and Status of Recommendation
                           Issue Date
Office of Strategic Initiatives (OSI) Continued
                                                                        Conduct a comprehensive needs assessment of hardware,
                                             Information                software, and IT equipment and ensure an adequate in-
Alternate Computing        2009-IT-101
                                             Technology        I.a.1    frastructure is in place to mirror and recover the Library’s
Facility                  September 2009
                                               Services                 critical systems—Although ITS has developed a process for
                                                                        performing a needs assessment, one has not occurred.
                                                                        Conduct a comprehensive evaluation of remote access and
                                                                        connectivity to the Alternate Computing Facility (ACF)—
                                             Information
Alternate Computing        2009-IT-101                                  The final phase of corrective action on this recommendation
                                             Technology        I.c.1
Facility                  September 2009                                is to install the recently procured hardware and software
                                               Services
                                                                        necessary to support the 4,000 remote users accessing the
                                                                        ACF. Installation will be completed by July 2011.
                                                                        Coordinate with the Library’s service units and divisions to
                                                                        develop and conduct tests to verify that users can directly
                                             Information                access and use the systems and data at the ACF from remote
Alternate Computing        2009-IT-101                                  locations—Although ITS has integrated a requirement that
                                             Technology        I.c.2
Facility                  September 2009                                users access the ACF from multiple locations as part of each
                                                  Services              individual IT system fail-over exercise, further tests will
                                                                        need to be developed and conducted once ITS has installed
                                                                        the increased remote access capability at the ACF.
                                             Information                Identify and classify the Library’s mission essential func-
Alternate Computing        2009-IT-101
                                             Technology        II.1     tions and critical systems—ITS has provided guidance and
Facility                  September 2009
                                               Services                 is working with the ITSC on a review of the tier list.
                                             Information                Establish procedures to ensure that the list of systems, clas-
Alternate Computing        2009-IT-101
                                             Technology        II.2     sified by tier level, is complete and kept up-to-date—ITS
Facility                  September 2009
                                               Services                 continues to actively work with the ITSC on this issue.
                                                                        Continue to implement the OIG’s recommendations to im-
                                                                        prove the readiness and functionality of the ACF data cen-
                                             Information
Data Center Power          2009-SP-102                                  ter discussed in the September 2009 OIG report—ITS has
                                             Technology        III.3
Outage Incident           December 2009                                 invested significant time and resources into improving the
                                               Services
                                                                        readiness of the ACF, however, remaining unimplemented
                                                                        recommendations have to be completed.
                                                                        ITS should address the single point of failure for wireless
                                                                        cellular phone service equipment in the main data center—
                                             Information
Data Center Power          2009-SP-102                                  ITS will formally ask the Office of Security and Emergency
                                             Technology        IV.1
Outage Incident           December 2009                                 Preparedness (OSEP) (who owns the Library’s emergency
                                               Services
                                                                        response plan) to find out whether wireless cell service is
                                                                        included in the LC emergency response plan.
                                                                        Strengthen network security controls for detecting unau-
                                                                        thorized devices on the Library’s network and follow es-
                                             Information
                           2010-SP-101                                  tablished guidelines and best practices for configuring and
Multi-Function Devices                       Technology         IV
                            April 2010                                  securing Multi-Function Devices—By May 2011, several
                                               Services
                                                                        technologies will detect unauthorized devices on the net-
                                                                        work.




37 • Semiannual Report to the Congress
Table 4A: 	    Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed

        Subject          Report No.       Office       Rec. No.      Summary and Status of Recommendation
                          Issue Date
Human Resources Services (HRS)
                                                                  Compare actual hiring data with planned results and peri-
                                                                  odically assess and adjust the time goals for each hiring step
Human Resources          2009-PA-101     Workforce                —With the implementation of Monster, HRS is maintain-
                                                         I.a.2
Services                November 2009   Acquisitions              ing satisfactory levels of service. Collection of hiring plan
                                                                  data will resume in the third quarter of FY 2011. Adjust-
                                                                  ments to workload assignments are ongoing.
                                                                  Develop a survey modeled after the Office of Personnel
                                                                  Management’s Management Satisfaction Survey to deter-
Human Resources          2009-PA-101     Workforce                mine managers’ satisfaction with the hiring process and
                                                         I.c.2
Services                November 2009   Acquisitions              identify strategies for making process improvements—HRS
                                                                  was delayed in meeting its implementation target of Octo-
                                                                  ber 2010. Implementation is currently underway.
                                                                  Prepare performance appraisals which compare employees’
                                                                  actual accomplishments with corresponding performance
Human Resources          2009-PA-101     Workforce
                                                         II.1     requirements—Performance plans were not updated as
Services                November 2009   Acquisitions
                                                                  planned. HRS will fully redesign performance plans for the
                                                                  2012 performance year.
                                                                  Make the contents of the Library’s “Jobs/Fellowships” Web
                                                                  page more inviting and informative to job seekers explor-
                                                                  ing Library career opportunities and ensure terms used are
Human Resources          2009-PA-101     Workforce
                                                         III.b    clearly explained—HRS indicates implementation of this
Services                November 2009   Acquisitions
                                                                  recommendation is dependent on several actions now un-
                                                                  derway. Redesign of the Web page is in process. HRS will
                                                                  set a completion target when it assesses project progress.
                                                                  Require managers to attend quarterly HRS forums and su-
                                          Human                   pervisors to attend at least once per year—HRS is conduct-
Employment Incentives   2010-PA-103
                                         Resources       I.1.a    ing cost research as well as reviewing other training alterna-
and Flexibilities         July 2010
                                          Services                tives. Results are expected for review in the third quarter of
                                                                  FY 2011.
                                                                  Require managers to complete on-line refresher training an-
                                                                  nually on material in the Supervisors Handbook, similar to
                                          Human                   the annual training required of all Library employees on
Employment Incentives   2010-PA-103                               information technology security awareness—The Human
                                         Resources       I.1.b
and Flexibilities         July 2010                               Capital Flexibilities Working Group (FWG) is devising new
                                          Services
                                                                  mandatory supervisory training and has taken this recom-
                                                                  mendation under advisement. Final training content is tar-
                                                                  geted for the fourth quarter of FY 2011.
                                                                  Assign a point-person responsible for ensuring that mem-
                                                                  bers of the FWG pass the group’s information on to their
                                          Human
Employment Incentives   2010-PA-103                               respective managers—HRS is developing strategies and
                                         Resources        I.2
and Flexibilities         July 2010                               formats for the FWG to convey information to field man-
                                          Services
                                                                  agement and will incorporate this in the Human Capital
                                                                  Management Plan when approved.
                                                                  Provide service and support units with sample justifica-
                                                                  tions and checklists to ensure that all legal and regulatory
                                          Human                   requirements are met in the administration of recruitment
Employment Incentives   2010-PA-103
                                         Resources       III.1    incentives—Sample justifications and checklists exist for
and Flexibilities         July 2010
                                          Services                appointments made at Above The Minimum Rate of Pay.
                                                                  HRS will develop similar materials for use of recruitment
                                                                  and relocation incentives by June 2011.




                                                                         Semiannual Report to the Congress • 38
Implemented Recommendations
Table 4B: 	      Significant Recommendations from Previous Semiannual Reports
		               for Which Corrective Action Was Completed During This Period
        Subject            Report No.          Office        Rec. No.      Summary of Recommendation and Action
                           Issue Date
 Office of the Librarian
                                                                        The DO should document its access control policy and re-
                                                                        vise password access to comply with IT Security Directive
 Raiser’s Edge              2006-IT-302      Development
                                                                 I      02—The latest version of Raiser’s Edge was installed by ITS
 Software Program          December 2007        Office
                                                                        in December 2010 and requires a more complex password
                                                                        access of at least 8 characters.
 Office of the Chief of Support Operations
                                                                        Develop a quality assurance process that ensures that all
                                              Office of
                                                                        solicitations are accurate and complete—All solicitations
 Sole Source Contract       2010-CA-102       Contracts
                                                               c.1.a    over $100K are peer reviewed for accuracy and completeness
 Award–Power Tech          September 2010    and Grants
                                                                        by members of the staff including team leaders and the
                                             Management
                                                                        Head of Contract Operations.
                                              Office of                 Establish a quality assurance process that ensures offered pric-
 Sole Source Contract       2010-CA-102       Contracts                 es are evaluated for reasonableness—The Contract Review
                                                               c.1.b
 Award–Power Tech          September 2010    and Grants                 Board is responsible for conducting reviews of the contract-
                                             Management                 ing officer’s methodology of price fairness and reasonableness.
                                                                        Coordinate with OCFO to identify opportunities for modi-
                                              Office of
                                                                        fying/improving Momentum—In response to this recom-
                            2007-PA-102       Contracts
 Office of Contracts                                            IV      mendation OCFO has acquired the Clarity Planning System
                           September 2007    and Grants
                                                                        and implemented the Momentum Open Requisition Report
                                             Management
                                                                        to track requirements for assignments to contract award.
                                                                        The Library should assess its Diversity Program annually
                                                                        using the Equal Employment Opportunity Commission’s
                                               Office of                (EEOC) MD-715 criteria and develop a plan to achieve
                                             Opportunity,               elements in the model—OIC completed a comprehensive
 Diversity Management       2008-SP-104
                                             Inclusiveness     II.1     assessment documenting diversity trends between 1994
 Program                     July 2008
                                                  and                   and 2009 using MD-715 criteria. The EC approved OIC’s
                                             Compliance                 2011-2016 Multi-Year Affirmative Employment Program
                                                                        Plan (MYAEPP) that includes elements of the MD-715 self-
                                                                        assessment.
                                                                        Develop a means to conduct an in-depth analysis of separa-
                                               Office of                tions to identify trends that will assist management in de-
                                             Opportunity,               termining reasons behind the separation rates of minorities
 Diversity Management       2008-SP-104
                                             Inclusiveness     II.6     and females—OIC’s comprehensive assessment of diversity
 Program                     July 2008
                                                  and                   trends in the Library’s workforce between 1994 and 2009 was
                                             Compliance                 reviewed and approved by the EC in October 2010. An exit
                                                                        questionnaire is now in use.
                                                                        Convene a Hispanic Employment Work Group to develop
                                               Office of                strategies to improve Hispanic representation—The MY-
                                             Opportunity,               AEPP approved in October 2010 by the EC recommended
 Diversity Management       2008-SP-104
                                             Inclusiveness     II.8     actions the Library should take to improve the representation
 Program                     July 2008
                                                  and                   of Hispanics in its workforce. OIC is working collaboratively
                                             Compliance                 with the Library’s Human Capital Management FWG to de-
                                                                        velop implementation strategies for these actions.
                                               Office of
                                                                        Conduct exit interviews to determine why staff leave and
                                             Opportunity,
 Diversity Management       2008-SP-104                                 identify employee perceptions about organizational commit-
                                             Inclusiveness     II.9
 Program                     July 2008                                  ment to diversity—HRS has successfully implemented an
                                                  and
                                                                        exit interview process.
                                             Compliance




 39 • Semiannual Report to the Congress
Table 4B: 	      Significant Recommendations from Previous Semiannual Reports
		               for Which Corrective Action Was Completed During This Period
       Subject            Report No.      Office        Rec. No.      Summary of Recommendation and Action
                          Issue Date
                                                                   Identify critical senior level and management positions and
                                          Office of
                                                                   focus training, career development, and mentoring programs
                                        Opportunity,
Diversity Management      2008-SP-104                              —OIC developed and implemented a mandatory “A Re-
                                        Inclusiveness      III
Program                    July 2008                               spectful Workplace” course to support managers in providing
                                             and
                                                                   an inclusive, respectful, and productive work environment in
                                        Compliance
                                                                   December 2010.
Library Services (LS)
                                                                   Halt improvement plans and reassess the need for the book
                          2010-PA-101     Library                  conveyor system—The Library completed its reassessment of
Book Conveyor                                               I
                          August 2010     Services                 the book conveyer and advised the Architect of the Capitol
                                                                   (AOC) that the renovation was no longer warranted.
                                                                   Work with the AOC to determine the most economical way
                                                                   to decommission the system while properly abating safety is-
                          2010-PA-101     Library
Book Conveyor                                              II      sues—The AOC has decided to remove the conveyor with
                          August 2010     Services
                                                                   the exception of the Jefferson Building charging station ser-
                                                                   vicing the main reading room.
                                                                   Use the decision model to make decisions about reading
Utilization of Reading    2003-PA-104     Library                  room space, office space, and storage—LS implemented an
                                                          II.2
Rooms                     March 2004      Services                 electronic decision model to help determine research center
                                                                   requirements for current and future needs on October 2010.
Integrated Support Services (ISS)
                                                                   Ensure that the cost structure for the next multi-function de-
                                                                   vice (MFD) contract is more transparent in how much the
                                         Integrated                Library pays for equipment, services, and supplies, and is
                          2010-SP-101
Multi-Function Devices                    Support          II      based on actual use rather than pre-determined estimates—
                           April 2010
                                          Services                 ISS incorporated language into the Request For Proposal
                                                                   (RFP) for the Library’s copier re-competition requiring a cost
                                                                   per copy proposal as well as a blended model.
                                                                   Ensure that security requirements for the new multi-function
                                                                   device contract are clearly documented and communicated
                                         Integrated
                          2010-SP-101                              to the vendor before executing future contracts—The Library
Multi-Function Devices                    Support         III.1
                           April 2010                              clearly stated in the RFP the specific security requirements
                                          Services
                                                                   for all equipment proposed by any organization bidding on
                                                                   the contract including applicable security requirements.
                                                                   Comply with Library policies and procedures and federal
                                                                   best practices for systems security C&A for the new con-
                                         Integrated                tract—Prior to connecting any vendor equipment to the Li-
                          2010-SP-101
Multi-Function Devices                    Support         III.2    brary’s network, ISS created and submitted a complete C&A
                           April 2010
                                          Services                 package to the ITS security team. The C&A was approved
                                                                   followed by full implementation of the Networked Copier
                                                                   Project in January 2011.
                                                                   Reevaluate three questionable surge allowances—ISS, in con-
Requirements Analysis                    Integrated                sultation with the service units, eliminated many of the in-
                          2006-SP-802
for the Proposed Fort                     Support          III     dividual surge allowances. Those that remain are considered
                          March 2008
Meade Logistics Center                    Services                 a requirement and were combined into the general storage
                                                                   requirement.
                                                                   Re-calculate the growth factor and consider leasing storage
                                                                   space on an as needed basis to accommodate potential growth
Requirements Analysis                    Integrated
                          2006-SP-802                              in storage requirements—ISS re-evaluated the growth factor
for the Proposed Fort                     Support          IV
                          March 2008                               concept and decided it is no longer a requirement. If addi-
Meade Logistics Center                    Services
                                                                   tional storage space is required, ISS agreed to consider leasing
                                                                   storage space on an as needed basis.

                                                                            Semiannual Report to the Congress • 40
Implemented Recommendations
Table 4B: 	      Significant Recommendations from Previous Semiannual Reports
		               for Which Corrective Action Was Completed During This Period
       Subject               Report No.    Office        Rec. No.      Summary of Recommendation and Action
                             Issue Date
Office of Strategic Initiatives (OSI)
                                                                    Ensure that the availability and functionality of the Library’s
                                          Information               critical systems at the ACF are periodically tested, document-
Alternate Computing       2009-IT-101
                                          Technology       I.b.1    ed, and reviewed—ITS has developed a process and schedule
Facility                 September 2009
                                            Services                to periodically test critical systems as part of the IT Continu-
                                                                    ity of Operations plan.
Human Resources Services (HRS)
                                                                    Require the staffing specialists and assistants to consistently
                                                                    enter complete hiring data into EmpowHR—HRS com-
Human Resources           2009-PA-101      Workforce
                                                           I.a.1    pleted training on Monster’s reporting tools and is evaluating
Services                 November 2009    Acquisitions
                                                                    whether it can replace EmpowHR for this process. Data is
                                                                    now entered in a timely manner.
                                                                    Develop reports which identify the workloads and results of
                                                                    HRS staffing personnel—HRS completed training on Mon-
Human Resources           2009-PA-101      Workforce
                                                           II.2     ster’s reporting tools and identified several standard reports
Services                 November 2009    Acquisitions
                                                                    that will provide this information. Ad hoc reporting tools
                                                                    will supplement the standard reports.
                                                                    Develop a methodology to track and analyze data regarding
Human Resources           2009-PA-101      Workforce                the Library’s recruiting and hiring activities—OIC attended
                                                           III.a
Services                 November 2009    Acquisitions              training on Monster’s reporting tools and identified several
                                                                    standard reports for recruiting and hiring analysis.
                                                                    Confirm that evidence of outside employment offers are ob-
                                                                    tained, or appropriate justification is documented, before a
                                            Human                   retention incentive is offered to an employee—HRS ensures
Employment Incentives     2010-PA-103
                                           Resources       III.2    that it has appropriate documentation (either evidence of
and Flexibilities           July 2010
                                            Services                outside employment offers or other appropriate justification)
                                                                    before effecting retention allowances. It has developed a plan
                                                                    to recertify all incentives on an annual basis.
                                                                    Identify hard-to-fill positions and focus incentive offers on
                                            Human
Employment Incentives     2010-PA-103                               those positions—Use of incentives is at the service unit head’s
                                           Resources       III.3
and Flexibilities           July 2010                               discretion and is driven by current skill need and availability
                                            Services
                                                                    of funds. HRS serves in a regulatory and documentary role.
                                                                    Develop a measure for the cost of staff turnover to assist man-
                                            Human
Employment Incentives     2010-PA-103                               agers during their cost/benefit analysis for retention incen-
                                           Resources       III.4
and Flexibilities           July 2010                               tives—HRS has estimated the costs associated with recruit-
                                            Services
                                                                    ment and attrition as recommended.




41 • Semiannual Report to the Congress
Above: Northwest Pavilion, View of Frieze Showing
Carved Lion’s Head and Plaster Capitals.
Photograph by Carol Highsmith, 2007.


 Semiannual Report to the Congress • 42
        Funds Questioned or Put to Better Use
         Table 5:	        Audits with Recommendations for Better Use of Funds
         Reports…                                                                     Number   Value
         …for which no management decision was made by the start of the period:         -        -

         …issued during the period:                                                     -        -
                                                                           Subtotal     -        -
         …for which a management decision was made during the reporting period:

                 value of recommendations agreed to by management                       -
                                                                                                 -
                 value of recommendations not agreed to by management                   -

         …for which no management decision was made by the end of the reporting
                                                                                        -        -
         period:

         …for which no management decision was made within six months of
                                                                                        -        -
         issuance:




         Table 6:	        Audits with Questioned Costs
         Reports…                                                                     Number   Value

         …for which no management decision was made by the start of the period:         -        -

         …issued during the period:                                                     -        -
                                                                           Subtotal     -        -
         …for which a management decision was made during the reporting period:

                    value of recommendations agreed to by management                    -        -

                    value of recommendations not agreed to by management                -        -

         …for which no management decision was made by the end of the reporting
                                                                                        -        -
         period:
         …for which no management decision was made within six months of
         issuance:                                                                      -        -




43 • Semiannual Report to the Congress
Instances Where Information or
Assistance Requests Were Refused
No information or assistance requests were refused during this period.

Status of Recommendations
Without Management Decisions
During the reporting period there were no recommendations more than six months old without management
decisions.

Significant Revised Management Decisions
During the reporting period there were no significant revised management decisions.

Significant Management Decisions
With Which OIG Disagrees
During this reporting period there were no significant management decisions with which OIG disagreed.

Follow-up on Prior Period Recommendations
In this semiannual period, we followed up on all open recommendations from our prior semiannual pe-
riod. Management’s comments on the status of individual recommendations appear in table 4A. Recom-
mendations management asserts it has implemented during the period appear in table 4B. In order to
confirm that recommendations have been implemented as reported, we perform periodic follow-ups of
selected projects to verify implementation, however, all assertions contained in table 4B are the representa-
tions of management.




                                                                                     Above: Plaque on First Street, Exterior of
                                                                                     the Thomas Jefferson Building, Showing the
                                                                                     Library of Congress Seal. The Thomas Jeffer-
                                                                                     son Building Acquired its Name in 1980.
                                                                                     Photograph by Jennifer R. Bosch, 2011.

                                                                      Semiannual Report to the Congress • 44
        Organizational Chart



                                                                   Inspector General
                                                                   Karl W. Schornagel
                       Counsel to the IG                                                                      Administrative Officer
                                                                   CPA
                       Matthew R. Paul, Esq.                                                                  Sheetal Gupta




                     Assistant Inspector                                                                   Assistant Inspector
                     General for Audits                                                                    General for Investigations
                     Nicholas G. Christopher, Esq., CPA                                                    Kenneth R. Keeler




Lead Auditor                                   Senior Lead Auditor                     Special Agent                           Special Agent
John R. Mech                                   Patrick J. Cunningham                   Pamela D. Hawe                          Vacant
CPA                                            CIA                                     (Part-time)                             (Part-time)




Auditor                                        IT Specialist                           Special Agent                           Investigator
Cornelia E. Jones                           Lawrence D. Olmsted                        Hugh D. Coughlin                        Barbara A. Hennix




Auditor                                        Auditor                                 Management
Elizabeth Valentin                             Walter E. Obando                        Analyst
CPA, CISA                                      CIA, CISA                               Michael R. Peters



Management                                     Management
Analyst                                        Analyst
Peter J. TerVeer                               Jennifer R. Bosch



                      Management
                      Analyst
                      Sarah E. Sullivan




45 • Semiannual Report to the Congress
Inspector General Hotline

    Help Promote Integrity, Economy, and Efficiency

Report Suspected Fraud, Waste, Abuse, or Mismanagement

          Complaints May be Made Anonymously




                     Inspector General

                    Library of Congress

              101 Independence Avenue, S.E.
                           LM-630

               Washington, DC 20540-1060




   Main Telephone Number:           (202) 707-6314

               Fax Number:          (202) 707-6032

 Hotline Telephone Number:          (202) 707-6306

             Hotline Email:         oighotline@loc.gov

                   P.O. Box:        15051 S.E. Station
                                    Washington, DC 20003-9997




      Any information you provide will be held in confidence.
    However, providing your name and a means of communicating
         with you may enhance our ability to investigate.
